U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 17, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Vahan Kelerchian v. United States of America, No. 19-782
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 20,
2019, and docketed on December 18, 2019. The government’s response is now due, after three
extensions, on April 22, 2020. We respectfully request, under Rule 30.4 of the Rules of this Court,
a further extension of time to and including April 24, 2020, within which to file a response.
This short extension is necessary because, in light of COVID-19, this Office is endeavoring
to minimize risks to the health and safety of our personnel responsible for the filing and service of
paper copies of Court documents by reducing the number of days each week on which the filing
and service of such documents are necessary and on which those personnel must report to work in
person.
Counsel for petitioner consents to this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0782
KELERCHIAN, VAHAN
USA

KERRY C. CONNOR
ATTORNEY AT LAW
9013 INDIANAPOLIS BLVD.
SUITE C
HIGHLAND, IN 46321
219-972-7111
KCCONNOR@SBCGLOBAL.NET
J. MICHAEL KATZ
THE LAW OFFICES OF J. MICHAEL KATZ
9013 INDIANAPOLIS BLVD.
HIGHLAND, IN 46321
219-838-9200
JMK4LAW@AOL.COM

